1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

Jessica Ring Amunson
Tel +1 202 639 6023
Fax +1 202 661 4993
JAmunson@jenner.com

November 11, 2020
By Electronic Filing and Electronic Mail
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street NE
Washington, DC 20543
sharris@supremecourt.gov
Re:

Brnovich, et al. v. Democratic National Committee, et al., No. 19-1257

Dear Mr. Harris:
As counsel of record for Respondent Katie Hobbs in Brnovich, et al. v. Democratic
National Committee, et al., No. 19-1257, and Arizona Republican Party, et al. v. Democratic
National Committee, et al., No. 19-1258, I am writing to grant blanket consent to the filing of a
brief amicus curiae by any person or entity, provided that it is filed within the time allowed by the
rules of this Court. This consent applies without regard to the position taken or the party being
supported.
Sincerely,
/s/ Jessica Ring Amunson
Jessica Ring Amunson
cc:

Joseph A. Kanefield
Counsel for State Petitioners (by electronic mail)
Michael A Carvin
Counsel for Arizona Republican Party (by electronic mail)
Marc E. Elias
Counsel for Democratic National Committee (by electronic mail)

CHICAGO

LONDON

LOS ANGELES

NEW YORK

W ASHINGTON, DC

WWW.JENNER.COM

